U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael David Lister v. United States of America,
S.Ct. No. 20-6225

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 2,
2020, and placed on the docket on November 5, 2020. The government’s response is due on
December 7, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 6, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6225
LISTER, MICHAEL DAVID
USA

JAMES MATTHEW WRIGHT
OFFICE OF THE FEDERAL PUBLIC DEFENDER
500 S. TAYLOR
SUITE 110
AMARILLO, TX 79109
806-324-2370
MATTHEW_WRIGHT@FD.ORG

